                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-00026-281




    Community Based Outpatient

            Clinic Reviews

                   at

 Louis A. Johnson VA Medical Center

           Clarksburg, WV





August 15, 2013

                        Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                CBOC Reviews at Louis A. Johnson VAMC



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       JC       Joint Commission
                       MH       mental health
                       NC       Noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       VAMC     VA Medical Center
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                             CBOC Reviews at Louis A. Johnson VAMC



                                            Table of Contents

                                                                                                                            Page

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        4


Onsite Reviews – Results and Recommendations..................................................                                    6

  CBOC Characteristics.............................................................................................               6

  C&P ........................................................................................................................    7

  EOC and Emergency Management ........................................................................                           8


Appendixes
  A. VISN 4 Director Comments ...............................................................................                    10

  B. Louis A. Johnson VAMC Director Comments ....................................................                                11

  C. OIG Contact and Staff Acknowledgments .........................................................                             13

  D. Report Distribution.............................................................................................            14





VA OIG Office of Healthcare Inspections
                                                        CBOC Reviews at Louis A. Johnson VAMC



                                Executive Summary

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the Gassaway-Braxton County CBOC during the
week of March 18, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOC listed in Table 1.

    VISN        Facility                  CBOC Name              Location
                Louis A. Johnson          Gassaway-Braxton       Sutton, WV
       4
                VAMC                      County
                                     Table 1. Site Inspected

Review Results: We made recommendations in two review areas.

Recommendations: The VISN and Facility Directors, in conjunction with the

respective CBOC managers, should take appropriate actions to:


   Ensure that clinicians screen patients for tetanus vaccinations.


   Ensure that biohazardous waste containers are available in the CBOC.


   Ensure that written, current inventories of hazardous materials are maintained at the

    CBOC.

Comments
The VISN and Facility Directors concurred with our recommendations and provided
acceptable improvement plans. (See Appendixes A and B, pages 10–12, for the



VA OIG Office of Healthcare Inspections                                                    i
                                                    CBOC Reviews at Louis A. Johnson VAMC


Directors’ comments.)        We will follow up on the planned actions until they are
completed.




                                                    JOHN D. DAIGH, JR., M.D.
                                                  Assistant Inspector General for
                                                       Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                ii
                                                                 CBOC Reviews at Louis A. Johnson VAMC



                                  Objectives and Scope

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to Centers for Disease Control and Prevention guidelines and VHA
   recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19. 1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and


1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.



VA OIG Office of Healthcare Inspections                                                               1
                                                                     CBOC Reviews at Louis A. Johnson VAMC


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. One CBOC was randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                 2
                                                                                                                CBOC Reviews at Louis A. Johnson VAMC



                                                               CBOC Profiles

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facilities’ oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                       Uniques,            Visits,
     VISN             Parent Facility                 CBOC Name               Locality6                FY 20127           FY 20127          CBOC Size8
                                                Gassaway-Braxton County         Rural                   1,488              7,039              Small
                                                      (Sutton, WV)
                                                       Monongalia               Rural                    2,273              11,262            Mid-Size
                                                    (Westover, WV)
                     Louis A. Johnson            Tucker County Veterans         Rural                    1,141              4,287               Small
       4
                          VAMC                           Center
                                                     (Parsons, WV)
                                                 Wood County Veterans           Urban                    3,433              16,374            Mid-Size
                                                         Center
                                                   (Parkersburg, WV)
                                                                Table 2. Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                   3
                                                                   CBOC Reviews at Louis A. Johnson VAMC



                     WH and Vaccination EHR Reviews

                      Results and Recommendations

WH
Cervical cancer is the second most common cancer in women worldwide.9 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.10
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.11 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
                               Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 28 patients who received a cervical cancer screening at the
Louis A. Johnson VAMC and its CBOCs.

Generally, the CBOCs assigned to the Louis A. Johnson VAMC were compliant with the
review areas; therefore, we made no recommendations.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.12
The NCP provides best practices guidance on the administration of vaccines for
veterans. The Centers for Disease Control and Prevention states that although

9
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

10
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

11
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.

12
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.



VA OIG Office of Healthcare Inspections                                                                        4
                                                             CBOC Reviews at Louis A. Johnson VAMC


vaccine-preventable disease levels are at or near record lows, many adults are under-
immunized, missing opportunities to protect themselves against tetanus and
pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review element marked
as NC needed improvement. Details regarding the finding follow the table.

         NC                                     Areas Reviewed
          X         Staff screened patients for the tetanus vaccination.
                    Staff administered the tetanus vaccine when indicated.
                    Staff screened patients for the pneumococcal vaccination.
                    Staff administered the pneumococcal vaccine when indicated.
                    Staff properly documented vaccine administration.
                    Managers developed a prioritization plan for the potential occurrence of
                    vaccine shortages.
                                          Table 4. Vaccinations

Tetanus Vaccination Screening. Through clinical reminders, VHA requires that CBOC
clinicians screen patients for tetanus vaccinations.13 We reviewed 75 patients’ EHRs
and did not find documentation of tetanus vaccination screening in 70 of the EHRs.

Recommendation

1. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.




13
     VHA Handbook 1120.05.


VA OIG Office of Healthcare Inspections                                                         5
                                                          CBOC Reviews at Louis A. Johnson VAMC



                             Onsite Reviews

                     Results and Recommendations

CBOC Characteristics
We formulated a list of CBOC characteristics that includes identifiers and descriptive
information for the randomly selected CBOCs (see Table 5).

                                                             Gassaway-Braxton County
 VISN                                                                      4
 Parent Facility                                                 Louis A. Johnson VAMC
 Types of Providers                                                Physician Assistant
                                                                 Primary Care Physician
 Number of MH Uniques, FY 2012                                             14
 Number of MH Visits, FY 2012                                             32
 MH Services Onsite                                                       Yes
 Specialty Care Services Onsite                                           WH
 Ancillary Services Provided Onsite                                   Laboratory
 Tele-Health Services                                                     MH
                                      Table 5. Characteristics




VA OIG Office of Healthcare Inspections                                                      6
                                                         CBOC Reviews at Louis A. Johnson VAMC


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.14 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P


14
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                     7
                                                     CBOC Reviews at Louis A. Johnson VAMC


The CBOC was compliant with the review areas; therefore, we made no
recommendations.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
areas identified as NC needed improvement. Details regarding the findings follow the
table.

        NC                                     Areas Reviewed
                    The CBOC was American Disability Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
         X          There was a written current inventory of hazardous materials.
         X          Equipment and supplies were properly stored to minimize infection.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information Technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.




VA OIG Office of Healthcare Inspections                                                 8
                                                                CBOC Reviews at Louis A. Johnson VAMC


         NC                               Areas Reviewed (continued)
                      Safety needle devices were available for staff use (e.g., lancets,
                      injection needles, phlebotomy needles)
                      The CBOC was included in facility-wide EOC activities.
                                               Table 7. EOC

Infection Control. The JC requires that organization minimizes the risk of infection when
storing and disposing of infectious waste.15 We found no process in place to dispose of
biohazardous waste.

Environmental Safety. The JC requires a written, current inventory of hazardous
materials that are used, stored, or generated.16 We observed that material safety data
sheets were available for all possible hazardous materials; however, we did not find a
written, current inventory of the hazardous materials that are used or stored at the
CBOC.

Recommendations

2. We recommended that biohazardous waste containers are available in the CBOC.

3. We recommended that managers maintain a written, current inventory of hazardous
materials at the CBOC.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.17 Table 8 shows the areas
reviewed for this topic.

         NC                                       Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local mental health emergency management plan for
                       this CBOC.
                       The staff articulated the procedural steps of the mental health
                       emergency plan.
                                    Table 8. Emergency Management

The CBOC was compliant with the review areas; therefore, we made no
recommendations.
15
   The JC Hospital Accreditation Program Manual 2012 Addition, Standard IC 02.01.01.
16
   The JC Hospital Accreditation Program Manual 2009 Addition, Standard EC 02.02.01.
17
   VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                            9
                                                     CBOC Reviews at Louis A. Johnson VAMC
                                                                                 Appendix A
                            VISN 4 Director Comments


               Department of
               Veterans Affairs                             Memorandum


       Date:           July 30, 2013


       From:           Director, VISN 4 (10N4)


       Subject:        CBOC Reviews at Louis A. Johnson VAMC, Clarksburg,

                       WV

       To:             Director, 54DC Healthcare Inspections Division (54DC)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       I have reviewed the information provided by the Louis A. Johnson VA
       Medical Center and I am submitting it to your office as requested. I concur
       with all responses and target dates.

       If you have any questions or require additional information, please contact
       Barbara Forsha, VISN 4 Quality Management Officer at 412-822-3290.




       //original signed by Carla Sivek for://

       Michael E. Moreland, FACHE




VA OIG Office of Healthcare Inspections                                                 10
                                                    CBOC Reviews at Louis A. Johnson VAMC
                                                                                Appendix B
              Louis A. Johnson VAMC Director Comments



               Department of
               Veterans Affairs                             Memorandum


       Date:           July 29, 2013

       From:           Director, Louis A. Johnson VAMC (540/00)

       Subject:        CBOC Reviews at Louis A. Johnson VAMC, Clarksburg,
                       WV

       To:             Director, VISN 4 (10N4)

        A.	 I have reviewed report titled “Community Outpatient Clinic Reviews at
            Louis Johnson VA Medical Center, Clarksburg, WV”.

        B.	 Actions are underway to resolve each of the three findings outlined in
            this report. No barriers to timely resolution are anticipated.

        C.	 The courteous and professional manner that was displayed by the OIG
            during this review is appreciated.



       //original signed by://

       Beth M. Brown, MS, FACHE, VHA-CM




VA OIG Office of Healthcare Inspections                                                11
                                                   CBOC Reviews at Louis A. Johnson VAMC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.

Concur. The Clarksburg Director concurs with this finding.

Target date for completion: September 3, 2013.

Actions Underway: 1) Clinical reminder for screening related to tetanus vaccination to
be implemented at Braxton CBOC. 2) Medical Record Review of the use of this clinical
reminder and vaccination administration to be accomplished monthly for three months
and quarterly thereafter.

2. We recommended that biohazardous waste containers are available in the CBOC.

Concur. The Medical Center Director concurs with this finding.

Target date for completion: September 3, 2013.

Actions Underway: 1) Place appropriate biohazardous waste containers at the
Braxton CBOC. 2) Check for the placement of these biohazardous containers at each
EOC rounds at the CBOC. A line item designating this action is to be added to the EOC
rounds document.

3. We recommended that managers maintain a written, current inventory of hazardous
materials at the CBOC.

Concur: The Medical Center Director concurs with this finding.

Target date for completion: September 3, 2013.

Actions Underway: 1) Reconcile the electronic file listing of hazardous materials
currently available at the Braxton CBOC with all hazardous materials currently in use at
the Braxton CBOC. 2) Print a hard copy of the electronic file listing and post at the
Braxton CBOC. 3) Add a line item designation to the EOC rounds document to check
for the presence of this hard copy document during the Braxton CBOC rounds.




VA OIG Office of Healthcare Inspections                                              12
                                                      CBOC Reviews at Louis A. Johnson VAMC
                                                                                  Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Myra Conway, MS, RN, Team Leader
Contributors            Margie Chapin, JD
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Donna Giroux, RN, BSN
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Natalie Sadow-Colón, MBA, Program Support Assistant
                        Patrick Smith, M. Stat
                        Randall Snow, JD
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  13
                                                  CBOC Reviews at Louis A. Johnson VAMC
                                                                              Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 4 (10N4)
Director, Louis A. Johnson VAMC (540/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Joe Manchin, III; John D. Rockefeller, IV
U.S. House of Representatives: Shelley Moore Capito, David B. McKinley


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              14
